                                   UNITED STATES DEPARTMENT OF EDUCATION

                                                        OFFICE OF INSPECTOR GENERAL




                                                               OCT - 6        am                                      CONTROL NUMBER
                                                                                                                       ED-OIG/AI7-DOOO I




Jack Manin, Chief Financial Officer
Office of the Chief Financial Ort1cer
United States Department of Educmion
Federal Building No.6, Room 4E3 13
400 Maryland A venue, SW
Washin gton , DC 20202

Dear Mr. Martin:

This Fina l Audit Report (Contro l Number ED·O IG/A 17-DOOOI) presents the results of our
audit to detennine if the United States Department of Education (Department) con tract!
payments were being made from the proper appropriated fund s for the period January 22, 2002.
throu gh December 31,2002.

                                                             AUDIT RESULTS

Our audit of paymen ts on se lected contracts revealed no instances of contract payments being
made from improper appropriations for the period January 22. 2002, through December 3 1,
2002. However, other issues did come to our attention. These Issues relate to improper contract
payments, reliability/quality of data maintained by the Department , and backdating a contracting
officer's represen tative (CO R) appOintment memorandum . The results of thi s audit are limited
to the procurements audited and cannot be projected to the entire procurement database.

On September 24 , 2003. the Dcpurtmcnt responded to our draft report addressing the findmgs
and recommendations. Department comments arc summari zed in the section that follows the
Recommendations, The full tex t of the Department 's response is included as Attachmen t I to
thi S report.




, The: pr«:c:» fo.-obligaling funds, rc:«1\ 'lIg gooth IUlIl SCf'\' iCtl, and payment is 11M: same fo.- contrnclS and purc~ orders .




                                             ..00 MARYlAND AVE .• S W WASH INGTON . D.C. 202{)2· IS10
United States Department of Education: Office of the Chief Financial Officer
Contracting and Purchasing Operations Compliance with Appropriation Law - ED-OIG/A17-D0001




Finding No. 1          Improper Contract Payments

We noted that the Office of Chief Financial Officer/Contracts and Purchasing Operations
(OCFO/CPO) was billed and ultimately paid an invoice that exceeded an award’s obligated
amount. In an effort to not exceed the obligated amount, OCFO/CPO charged the excess amount
to another award. The original invoice received by OCFO/CPO for moving services under a
fixed price purchase order ED-02-PO-1229, was $42,467.13, and exceeded the obligation by
$6,699.95. The contractor was instructed by the Contracting Officer (CO) to submit two
invoices. One invoice would be applied against the original obligation for purchase order ED-
02-PO-1229, and the other invoice would be applied against a subsequent contract. As a result,
the subsequent contract paid for moving services that were not within its period of performance.
In addition, OCFO/CPO increased one invoice under purchase order ED-02-PO-1229 in order to
clear out the remaining funds available on the award. The increase resulted in the Department
paying the contractor for more than the amount billed. The invoices, including the overpayment,
were entered into OCFO/CPO’s Contracts and Purchasing Support Systems (CPSS) by the COR
and certified by the CO.

Title 31, United States Code, Section 3528 “Responsibilities and relief from liability of
certifying officials,” provides that the certifying officer is responsible for: (1) the existence and
correctness of the facts stated in the certificate, voucher, and supporting documents; (2) the
correctness of computation on the voucher; and (3) the legality of the proposed payment under
the appropriation of fund involved. The statute further provides that a certifying officer will be
accountable for the amount of any illegal, improper, or incorrect payment resulting from his or
her false misleading certification, as well as for any payment prohibited by law or which does
not represent a legal obligation under the appropriation or fund involved.

The Department Instructions on the Administrative Control of Funds, dated September 2000, and
revised March 2003, provides that,

                    “Administrative violations of funds control are the making of
                    or authorizing any actions or financial transactions that result
                    in the overobligation or overexpenditure of distributions of
                    funds at a level below sub-allotments that do not cause the
                    overobligation or overexpenditure of an appropriation,
                    apportionment, allotment or sub-allotment. For purpose of
                    these instructions, these are called administrative violations
                    as distinct from statutory violations of the Antideficiency Act.
                    Preparing external reports or making financial transaction
                    adjustments that incorrectly report excess obligations or
                    payments without appropriate documentary evidence of such
                    transactions may also be administrative violations.”

Based on discussions with Department officials, proper procedures would have been for the CO
to modify the purchase order. However, the CO was uncertain on how to proceed and lacked
knowledge and understanding of his or her contracting responsibilities. As a result, proper
procedures were not followed for certifying invoices before payment, payments were not
matched with obligated amounts, and one payment was made to a contractor without proper
                                                                                             Page 2 of 12
United States Department of Education: Office of the Chief Financial Officer
Contracting and Purchasing Operations Compliance with Appropriation Law - ED-OIG/A17-D0001


documentation. These practices may lead to an administrative violation of funds control and
fraudulent acts.

Recommendations:

We recommend that the Chief Financial Officer:

          1.1 	     Provide a reminder to OCFO/CPO staff that emphasizes proper payment
                    procedures and contract modifications.

          1.2 	     Obtain a refund of $28.10 for overpayment on the final invoice under purchase
                    order ED-02-PO-1229.

OCFO Comments

OCFO responded to our recommendations as follows:

          1.1 	     OCFO/CPO is taking action to address the issue. On the OCFO Procedures that
                    Work website, a procedure titled “Modifying the Award” is posted and is
                    currently being updated for currency and accuracy. Additionally, as a corrective
                    action under Alert Memorandum 03-D0003, OCFO/CPO will be refreshing staff
                    on the policy of payment reviews and redistributing the invoice payment
                    guidelines. Another corrective action for the alert memo is to prepare a procedure
                    on incentive payments to be posted on the OCFO Procedures that Work website.
                    OCFO/CPO will publicize these documents to all staff as a reminder of proper
                    procedures. OCFO/CPO believes that actions mentioned above are sufficient to
                    satisfy this recommendation. The contracting officer involved has been made
                    aware of the specifics of Finding 1 and understands that her handling of the
                    payments to the contractor should have been managed more appropriately.

          1.2 	     OCFO/CPO has taken action to address the issue. The Department received a
                    credit for $28.10. OCFO/CPO has reminded the employee of the proper payment
                    procedures and contract modifications, and considers this matter resolved.

Office of Inspector General (OIG) Response

          1.1 	     If fully implemented, OCFO’s planned action should adequately address the
                    finding and recommendation.

          1.2 	     If fully implemented, OCFO’s action should adequately address the finding and
                    recommendation.

Finding No. 2          Reliability/Quality of Data Maintained by the Department is Questionable

Our review of the data extracts, from CPSS and/or the Financial Management System Software
(FMSS) components of the Education Central Automated Processing System (EDCAPS), raised
questions concerning the accuracy and completeness of the data. Our testing of February 13,
2003, and February 20, 2003, Departmental data extracts to external source data disclosed that a
                                                                                             Page 3 of 12
United States Department of Education: Office of the Chief Financial Officer
Contracting and Purchasing Operations Compliance with Appropriation Law - ED-OIG/A17-D0001


number of active contract awards were not included in the Department extracts. Specifically,
testing of the February 13, 2003, data extract disclosed that four out of seven awards chosen for
review during our survey were not included in the data extract. Testing of the February 20,
2003, data extract to contracts reported by OCFO/CPO as active disclosed that 100 awards were
not included in the data extract. Testing of a third data extract provided by the Department on
March 17, 2003, to contracts reported by OCFO/CPO as active disclosed that 39 awards were not
included in the data extract. While more complete than the prior two, the third data extract
contained the following problems:

     ▪		 89 awards included in the population of 36,972 awards did not identify an accounting
         classification code structure (ACCS). The Department was unable to determine why the
         89 awards included in the population did not have an ACCS. As a result, we were unable
         to identify the appropriate program office associated with the award.

          Allotments, obligations and payments for all Department programs and activities are
          made using an ACCS designed to ensure proper funds control and tracking and reporting
          of funds. The basic elements of the ACCS – the appropriations, apportionments, and
          allottee organization – enable the Department to meet the requirements of the Anti-
          deficiency Act. The ACCS contains 13 segments, including: fund codes that reflect the
          appropriation identification number, period of availability for federal obligation, and
          fiscal year; project codes that reflect the funding category (e.g., program, administrative,
          reimbursable), limitations established by statute and the apportionment process, Catalog
          of Federal Domestic Assistance number and object class; and the office or organization to
          which the authority to obligate and expend funds is granted by the allotment.

     ▪		 213 awards had a negative amount in the current award field. Based on a discussion with
         an OCFO/Financial Systems Operations (FSO) official, negative amounts were due to
         data entry errors by the users. CPSS system users are able to turn off the default “award
         and modification totals” setting on the obligation record. This requires the user to
         manually calculate all modifications, which may result in negative balances.

Office of Management and Budget (OMB) Circular No. A-11 requires that the Department’s
funds control system, established and described by the Instructions on the Administrative
Control of Funds, be supported by its financial management system and that the Department’s
feeder financial systems provide the same fund control support.

The General Accounting Office (GAO) Internal Control Standards: Internal Control
Management and Evaluation Tool (GAO-01-1008G, August 2001), Section - Control Activities
Specific for Information Systems - Application Control, states that there are four major factors or
categories of control activities that need to be considered by the user when evaluating application
control: authorization control, completeness control, accuracy control, and control over integrity
of processing and data files.

According to GAO, when evaluating completeness control, items to consider are whether: (1) all
authorized transactions are entered into and processed by the computer; and (2) reconciliations
are performed to verify data completeness. In addition, GAO states that when evaluating
accuracy control, items to consider are whether: (1) the agency’s data entry design features
contribute to data accuracy; (2) data validation and editing are performed to identify erroneous
                                                                                             Page 4 of 12
United States Department of Education: Office of the Chief Financial Officer
Contracting and Purchasing Operations Compliance with Appropriation Law - ED-OIG/A17-D0001


data; (3) erroneous data are captured, reported, investigated, and promptly corrected; and (4)
output reports are reviewed to help maintain data accuracy and validity.

GAO’s fourth control standard – Information and Communications, states that for an agency to
run and control its operations, it must have relevant and reliable financial and nonfinancial
information relating to external as well as internal events. The information should be recorded
and communicated to management and others within the agency who need it, and in a form and
within a time frame that enable them to carry out their internal control and operational
responsibilities.

There is a lack of reconciliation to ensure data completeness and accuracy. CPSS is designed as
the system of record for Department contracts and should reflect accurate information to assist
management in their oversight responsibilities. System users are able to turn-off CPSS default
settings thus allowing them to enter incorrect data, diminishing the Department’s ability to
capture and maintain accurate information for managing contracts.

Recommendations:

To improve the Department’s data and the systems established to assist the Department in
fulfilling its responsibility to practice sound financial management we recommend that the Chief
Financial Officer take action to:

          2.1 	     Ensure periodic reconciliations and testing are performed to verify completeness
                    and accuracy of data.

          2.2 	     Ensure system controls are in place so that users cannot access and turn-off
                    a default setting.

          2.3 	     Ensure system controls are in place to detect data that is not valid, accurate, and
                    complete.

          2.4 	     Determine why modifications entered by system users result in a negative
                    balance.

          2.5 	     Ensure that the system can generate complete and accurate reports in a form and
                    with sufficient detail that can be used as a tool for users to enable them to carry
                    out their internal control and operational responsibilities.

OCFO Comments

OCFO responded to our recommendations as follows:

          2.1 	     Research by OCFO revealed that these awards were never obligated or were
                    awards against Basic Ordering Agreements (BOA). Per OCFO, in these cases, it
                    is appropriate for a CPSS record not to be obligated and, in turn, not associated
                    with any ACCS. For BOA’s, the record is required in CPSS for procurement
                    purposes. These have no financial transactions directly associated with them so
                    they require no accounting information. Accounting transactions occur when
                                                                                               Page 5 of 12
United States Department of Education: Office of the Chief Financial Officer
Contracting and Purchasing Operations Compliance with Appropriation Law - ED-OIG/A17-D0001


                    delivery orders are subsequently placed against the BOA’s and the ACCS are
                    associated with the individual Delivery Orders.

                    Tools are available to verify completeness and accuracy of data. CPSS records
                    have a “recstatus” associated with them to indicate whether they have been posted
                    to the Financial System. This must be considered when running reports against
                    the data. If there is no “recstatus” or negative “recstatus”, there will be no
                    corresponding transaction posted in FMSS. CPSS users can easily view the
                    financial status of each record by selecting the Financial/View Status menu option
                    on the Award Summary Screen. Reconciliation of the posted amounts can be
                    performed using the Award Financial History Report in FMSS.

          2.2 	     OCFO will take action to address the issue. CPSS has an automated calculation
                    feature that normally would prevent negative balances. OCFO will investigate
                    CPSS system defaults where they appear to contradict established business
                    processes to determine the best course of action.

          2.3 	     Functionality is currently available.

          2.4 	     OCFO provided an explanation for the negative balances referenced in
                    Recommendation 2.4. It further stated that OCFO will take action to address the
                    issue where the user has altered the data, the Administration amounts on some
                    contracts are not accurate, and need to be researched and corrected as appropriate.
                    OCFO questioned our characterization that these issues could affect funds control
                    and lead to payment errors because they maintain the issues are limited to CPSS
                    and would not affect FMSS from which payments are made.

          2.5 	     OCFO will take action to address the issue. While some limited capability is
                    available, OCFO concurs with the recommendation. OCFO will take action to
                    ensure that CPSS reports are a tool for users enabling them to carry out their
                    internal control and operational responsibilities.

OIG Response

          2.1 	     OIG recommendation stands. Irrespective of the issue that there were no
                    “corresponding” entries on the financial system, the presence of these records in
                    CPSS does provide misleading information to users of the data. The fact that no
                    awards were ever made under these 89 contracts indicates that they should not
                    have been provided to the OIG as “Active awards” in the population by the
                    EDCAPS staff. The presence of dollar amounts in CPSS (despite the record
                    status flag) when no funds were ultimately awarded does imply the presence of
                    inaccurate information in CPSS.

                    For internal EDCAPS users, these nuances of the system may be acceptable and
                    well known. However, the system was designed for use by staff that may, by
                    definition, be less knowledgeable of these issues. Having to use inquiry tools
                    within a separate system (FMSS) to verify the accuracy of the CPSS data (or
                    show there were award records on CPSS that were never completed) is
                                                                                             Page 6 of 12
United States Department of Education: Office of the Chief Financial Officer
Contracting and Purchasing Operations Compliance with Appropriation Law - ED-OIG/A17-D0001


                    cumbersome and again implies the data on CPSS is not properly posted. Had
                    these 89 awards on CPSS properly shown no dollar amounts associated with the
                    contracts, the ACCS issue would not have been considered an issue. However,
                    the Award Financial History Reports ran for a sample of the 89 awards included
                    in the population, that did not identify an ACCS, reflected that payments were
                    made.

          2.2 	     If fully implemented, OCFO’s planned action should adequately address the
                    finding and recommendation.

          2.3 	     OIG recommendation stands. Current functionality needs to be enhanced. OCFO
                    needs to ensure system controls are in place to detect data that is not valid,
                    accurate, and complete. By doing so, established business practices will not be
                    contradicted, contract data will be accurate, and CPSS reports will be a tool for
                    users enabling them to carry out their internal control and operational
                    responsibilities.

          2.4 	     OIG recommendation stands. Although the Department provided an explanation
                    for why some of the negative balances identified in this report may have occurred,
                    it is critical for the Department to ensure that it has accurate data from which to
                    manage its operations. OCFO needs to research the negative balances to
                    determine if the modifications entered by system users are appropriate and, if not,
                    are corrected. We modified some of the finding language to focus on the effect
                    on CPSS and the Department’s ability to manage contracts.

          2.5 	     If fully implemented, OCFO’s planned action should adequately address the
                    finding and recommendation.

Finding No. 3          Backdating a COR Appointment Memorandum

We noted, in one instance, where the CO within the OCFO/CPO did not issue an appointment
memorandum to the COR in a timely manner. The COR functioned without official authority for
approximately a year. The CO backdated the appointment memorandum to get the paperwork in
order.

On March 22, 2002, the Department issued a purchase order for services to support the
application review process and other pre- and post- review activities associated with the Fund for
the Improvement of Postsecondary Education (FIPSE) activities. An Office of Postsecondary
Education (OPE) individual had functioned as a COR for a year without an appointment
memorandum. Just prior to an OIG on-site review of the COR files located in OPE, OCFO/CPO
provided the COR with an appointment memorandum and requested it be signed and dated. In
response to the request, the COR signed the appointment memorandum but did not feel
comfortable in backdating it and therefore did not date the appointment memorandum. The
appointment memorandum signed by the CO was dated April 22, 2002. The CO stated that an
appointment memorandum had been previously issued. However, our review of the COR and
OCFO/CPO files did not find this memorandum. The only memorandum in the files was the one
issued on or around April 2003 but dated April 2002.

                                                                                             Page 7 of 12
United States Department of Education: Office of the Chief Financial Officer
Contracting and Purchasing Operations Compliance with Appropriation Law - ED-OIG/A17-D0001


Department Directive, OCFO:2-108, “Contract Monitoring for Program Officials,” dated January
12, 1987, Section VI – Roles, Responsibilities, and Standards of Conduct, specifically Part
A.5.d., states that the CO issues to the COR for each contract a memorandum outlining the
COR’s basic contract monitoring responsibilities and limitations, and explains this information to
the extent judged appropriate.

Section VI.B – Memorandum From CO to COR Outlining the COR’s Monitoring
Responsibilities and Limitations, specifically Part VI.B.1., states after a contract is awarded, the
CO is to send a memorandum to the COR reminding them of his or her responsibilities and
limitations in monitoring process.

The internal Departmental standards and guidelines for monitoring contracts, Roles and
Responsibilities, and Standards of Conduct of a CO (OCFO:2-108, Section VI) does not
explicitly provide a time frame for when a CO is to issue a memorandum to the COR that
outlines the COR’s basic contract monitoring responsibilities and limitations (Part A.5.d.).

In addition, the internal Departmental standards and guidelines for monitoring contracts,
Memorandum From CO to COR Outlining the COR’s Monitoring Responsibilities and
Limitations (OCFO:2-108, Section VI.B), does not explicitly provide a time frame from when a
contract is awarded to when the CO is to send an appointment memorandum to the COR. By
not issuing an appointment memorandum in a timely manner, an individual functioning as a
COR is unaware of his or her responsibilities and limitations, and leads to ineffective contract
and contractor monitoring. Also, the actions taken may exceed the authority of a COR and result
in additional charges to the Government (i.e., modifying or changing the terms of a contract –
such as obligated cost or price, delivery, or scope of work; issuing instructions to start or stop
work; or approving any action which would result in additional charges to the Government).

Recommendations:

We recommend that the Chief Financial Officer take action to:

          3.1 	     Revise Department Directive OCFO:2-108 to provide a specific time frame from
                    when a contract is awarded to when the CO is to send an appointment
                    memorandum to the COR reminding the COR of his or her responsibilities and
                    limitations in monitoring.

          3.2 	     Ensure OCFO/CPO staff are aware of and adhere to Departmental standards and
                    guidelines that apply to their responsibilities as contracting officers, including
                    issuing timely appointment memorandums when appropriate.

OCFO Comments

OCFO responded to our recommendations as follows:

          3.1 	     OCFO/CPO will take action to address the issue. OCFO/CPO will update
                    Departmental Directive OCFO:2-108, and the OCFO Procedures that Work
                    addressing COR appointment to include this policy.

                                                                                              Page 8 of 12
United States Department of Education: Office of the Chief Financial Officer
Contracting and Purchasing Operations Compliance with Appropriation Law - ED-OIG/A17-D0001


          3.2 	     OCFO/CPO will take action to address the issue. OCFO/CPO believes that the
                    staff is aware of these standards and guidelines, and adheres to them to the best of
                    their abilities. OCFO/CPO’s Procedures that Work are being reviewed to ensure
                    that they are up to date and current with Departmental standards and guidelines.
                    OCFO/CPO will send an email to all staff with a link to the OCFO/CPO
                    Procedures that Work website as a reminder that the procedures are available for
                    their use.

OIG Response

          3.1 	     If fully implemented, OCFO’s planned action should adequately address the
                    finding and recommendation.

          3.2 	     If fully implemented, OCFO’s planned action should adequately address the
                    finding and recommendation.

                                                     BACKGROUND

OCFO/CPO is responsible for the solicitation, award, administration, and closeout of all
contracts and other acquisition instruments, except some simplified acquisitions and General
Service Administration schedule orders.

OCFO/CPO is composed of five groups – the Director’s Support Group and Contracts
Groups A-D. Each Contract Group, lead by a Supervisory Contract Specialist and
reinforced by Contract Specialists, serve assigned principal offices through acquisition
planning, administration and support.

The COR located within a principal office is responsible for monitoring the programmatic
or technical aspects of a contract. As part of his or her responsibilities, the COR reviews
and makes recommendations to either approve, disapprove, or take other actions, concerning
contractors’ payment requests, or any other requirements of the contract. The COR enters
these recommendations directly into CPSS and the appropriate accounting line item, if
known. The CO uses the information to effect payment and has sole authority to approve an
invoice for payment.

This process was different prior to January 22, 2002, when the Department replaced its
Financial Management Support System (i.e. FARS) with Oracle Federal Financials (Oracle),
as its new financial management system. Invoice payment procedures under the old FMSS
prior to January 22, 2002, limited the COR’s responsibility primarily to receiving and
inspecting goods or services. Under this old process there were indications that
appropriations may have been inappropriately matched with contract actions.

The main difference from the old to the new payment process is that a COR must now
complete the receiving process in CPSS. OCFO/CPO then verifies and posts the receipt in
CPSS and effects payment.




                                                                                              Page 9 of 12
United States Department of Education: Office of the Chief Financial Officer
Contracting and Purchasing Operations Compliance with Appropriation Law - ED-OIG/A17-D0001


                          OBJECTIVE, SCOPE AND METHODOLOGY

The objective of the audit was to determine if contract payments were being made from the
proper appropriated funds. To accomplish our objective, we gained an understanding of the
Department’s controls over the payment process - invoice processing and disbursements. We
reviewed Federal Acquisition Regulations and applicable Departmental policies and procedures.
We conducted interviews with CORs, and reviewed award files maintained by the COR in three
principal offices. In addition, we reviewed official contract and purchase order files located in
OCFO/CPO. Follow-up with the CORs and the COs was conducted when necessary. A
contractor was contacted regarding the receipt of memorandum from OCFO/CPO –
invoice/payment.

In selecting awards to review, we requested that the Department, OCFO/FSO provide us with a
data extract file on all contracts and purchase orders awarded during the period January 1, 1998
through December 31, 2002. In response to our request, the Department provided data extract
files containing award information, on three separate occasions.

The data extract files provided by OCFO/FSO were tested to assess the reliability of the
information. Testing included a comparison of the data extracts to contracts reported by
OCFO/CPO as active. Results of testing on the February 13, 2003, and February 20, 2003, data
extract files disclosed that the population of awards were incomplete - awards reported as active
by OCFO/CPO were not included. The third data extract provided by the Department on March
17, 2003, was more complete than the prior two, however, we noted problems that are detailed in
Finding No. 2. This third data extract was the best available for purposes of our audit.

Using the third data extract, we identified three program offices; Office of Postsecondary
Education (OPE), Office of Intergovernmental and Interagency Affairs (OIIA), and the Office of
Management (OM) with the greatest number of awards (contracts and purchase orders). We
judgmentally selected the largest dollar contract and purchase order for review from each office.
One award, initially selected for review, was incorrectly reflected in the data extract as an OPE
award rather than an Office of Educational Research and Improvement/Institute of Education
Sciences (OERI/IES) award. As a result, the OERI/IES award initially selected for review was
replaced by the next largest OPE award. We excluded OERI/IES awards due to previous OIG
audit coverage that evaluated the Department’s process for identifying and monitoring high-risk
contacts supporting OERI programs.

Our audit focused on the period January 22, 2002, through December 31, 2002. We conducted
our survey from December 16, 2002 through March 24, 2003. We conducted fieldwork in
OCFO, OPE, OIIA, and OM, located in Washington, DC, from April 21, 2003 to May 23, 2003.
We held an exit conference with Department officials on August 4, 2003. We performed our
audit in accordance with generally accepted government auditing standards appropriate to the
scope of review described above.

                             STATEMENT ON MANAGEMENT CONTROLS

As part of our review we gained an understanding of the management controls, policies and
practices applicable to the Department’s administration of procurements. Our review was

                                                                                             Page 10 of 12
United States Department of Education: Office of the Chief Financial Officer
Contracting and Purchasing Operations Compliance with Appropriation Law - ED-OIG/A17-D0001


performed to determine the level of control risk for determining the nature, extent, and timing of
our substantive test to accomplish the audit objective.

For the purpose of this report, we gained an understanding of the Department’s controls over the
payment process and classified the significant controls into the following categories:

                    • Invoice processing, and
                    • Disbursements.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed management control weaknesses that adversely affected the
Department’s ability to administer the procurement process. These weaknesses resulted in
improper contract payments, unreliable data maintained by the Department, and the backdating
of a COR appointment memorandum. The weaknesses and their effects are fully discussed in the
AUDIT RESULTS sections of this report.

                                         ADMINISTRATIVE MATTERS

The Chief Financial Officer has been designated as the primary action official for this report. An
electronic copy has been provided to your Audit Liaison Officers. We received your comments
addressing the findings and recommendations in our draft report.

Corrective actions proposed (resolution phase) and implemented (closure phase) by your offices
will be monitored and tracked through the Department’s automated audit tracking system.
Department policy requires that you develop a proposed Corrective Action Plan (CAP) in the
automated system within 60 days of the issuance of this report. The CAP should set forth the
specific action items, and targeted completion dates, necessary to implement final corrective
actions on the findings and recommendations contained in this final audit report.

In accordance with the Inspector General Act of 1978, as amended, the OIG is required to report
to Congress twice a year on the number of audits unresolved. In addition, any reports unresolved
after 180 days from the date of issuance will be shown as overdue in our reports to Congress.
Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Department’s OIG. Determinations
of corrective action to be taken will be made by the appropriate Department officials.

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Department’s Office of the
Inspector General (OIG). Determinations of corrective action to be taken will be made by the
appropriate Department officials.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the
Department’s OIG are available to members of the press and general public to the extent
information contained therein is not subject to exceptions in the Act.

We appreciate the cooperation given to us during this review. If you have any questions, please
contact Chelton T. Givens at (202) 205-7945.
                                                                                             Page 11 of 12
Unitetl States Depanmcnt of Education Office of th ~ Chief Financial Offien-
                                                                     u w-
Coo uOIcting alld f'urchaslll g Operations Comph:lIlcc wIth Approprial ion   ED-O IGIA 17-0000 1




                                                                SJn~w
                                                                ~~w
                                                                Assistant In spector General for Audit Services



cc: 	     Mark Carney (electroni c copy)
          Deput y Chi ef Finan cial Officer

          Glenn Pe rry (electroni c copy) 

          Di rector, Contrac ts and Purchas in g Operations 


          Dann y Harri s (electroni c copy) 

          Director, Financial Syste ms Operati ons 


          Cynthi a Bond-Butler (electronic copy) 

          Ex.ecuti ve Assistan t/Aud it Liaison Officer 

          Contracts and Purchasin g Operations 


          Charles Miller (e lectroni c copy) 

          Supervisor, Post Audit Group 

          Fin ancial improvement and Post Audit Operations 





                                                                                                           l'lJge I2of 12
                                                                                                              Attachment I
                     UNITED STATES DEPARTMENT OF EDUCATION

                                  OFFICE OF THE CHIEF FINANCIAL OFFICER 


                                                                     THE CHIEF FINANCIAL OFFICER 





TO                         Helen Lew
                           Assistanllnspector General for Audit Services

FROM                       Jack   Martili-J;p~
SUBJECT                   OCFO Response to the Office of the Inspector General (OIG)
                          Draft Audit Report of September 4, 2003
                          Control Number ED-OIG/AI7-DOOOI


This memorandum responds to the Office of the Inspector General (OIG) Draft Audit
Report dated September 4, 2003 (Control Number ED-OlG/A 17-DOOOI) assessing if the
United States Department of Educatiqn (Department) contract payments were being made
from theproper appropriated funds for the period January 22, 2002 through December
31 , 2002. In your draft audit report, you state that you found no instances of contract
payments being made from improper appropriations during that period of time.
However, other issues were found. These issues relate to improper contract payments,
reliability/quality of data maintained by the Department, and backdating a contracting
officer's representative (COR) appointment memorandum. The oro noted that the
results of this audit are limited to the selected procurements audited and cannot be
projected to the entire procurement database.

Finding I : Improper Contract Payments. The OIG noted that Contracts and Purchasing
Operations (CPO) was billed and ultimately paid an invoice that exceeded an award's
obligated amount. To pay the bill, the contracting officer applied the overpayment in the
amount of $6,699.95 to another contract. (The original contract and subsequent contract
were for moving services awarded to the same contractor.) Additionally, the OIG noted
that the contracting officer increased one invoice under the original contract by $28.10 to
clear out the remaining funds available under the contract. The OrG believed the
increase resulted in the Department paying the contractor for more than the amount
billed.




                             0400 MARYUND AVE., S.W. , WASHINGTON, D.C. :l:02CY.!· "'300
                                                     www.ed.gov

       Ow- mission i. 10 ~ ~ .:r.ocoeu 10 edwm.tbl tI1Id 10 p.o_ educWiMallU:Ol!llmoi! lhtoughout t/w! NotinrI.
        Based on the foregoing, the DIG issued the following recommendations:

        Recommendation 1.1: We recommend that the ChieJ Financial Officer provide a
        reminder 10 OCFO/CPO staffthat emphasi::.es proper payment procedures and cOlUmct
        modifications.

        OCFO Response: Information on contract payments is already available to CPO staff.
        and we feel that the staff has been observing the procedures well for the most pan. On
        the aCFO Procedures that Work website. a procedure titled "Modifying the Award" is
        posted and is currently being updated for currency and accuracy. Additionally, as a
        corrective action under Alert Memorandum 03-00003, CPO will be refreshing staff on
        the policy of payment reviews and redistributing the invoice payment guidel ines.
        Another corrective action for the alert memo is to prepare a procedure on incentive
        payments to be posted on the OCFO Procedures that Work website. CPO will publicize
        these documents to all staff as a reminder of proper procedures. Since the OIG noted that
        the results of this audit are limited to the selected procurements audited and cannot be
        projected to the entire procurement dalabase, CPO believes the actions mentioned above
        are sufficient to satisfy this recommendation. The contracting officer involved has been
        made aware of the specifics of Finding I and understands that her handling of the
        payments to the contractor shou ld have been managed more appropriately.

         Recommelldatio/J 1.2: We recommend that the ChieJ Financial Officer obtain a reJund
        Jar overpayment Oil the final invoice ullder purchase order ED-02-PO-1229.

        OCFO Response: While CPO concurs that the total payment of $42,467 .13 shou ld have
        been made under the original contract with the proper modifica[ion, and not spli t between
I       the 2 contracts because the obligation would be exceeded, CPO does not consider the
        $6.699.95 as an overpayment. This amount was in fact, a representation of ovcnime
        worked that was authorized under the contract by the contracting officer. At this point, if
        CPO obtained a refund from the contractor (only to payout again to the same contractor
I       but under the original contract) in order to correct the payment records between the 2
        contracts. the principal office would lose these funds as these funds would reimburse to a
        general fund, and not to the specific appropriation that funded the original contract. The
I
        contracting officer made a decision that avoided stopping work that needed to be
        perfomled. thus saving time and money. Additionally, the Department received a credit
        for 528.1 0 on a subsequent invoice, However, as mentioned previously, CPO has
        reminded the employee of the proper payment procedures and contract modifi cations, and
I       considers this matter resolved,

        finding 2: Reliability/Quality of Data Maintained by the Department is Questionable.
I       The OIG review of data extracts from CPSS and FMSS raised questions concerning the
        accuracy and completeness afthe data.


    I




    I

                                                                                                  2


    I
Based on the foregoing, the OIG issued the following recommendations:

Recommendaliol/ 2.1: We recommend IlImlhe CMef Fin(ll/cial Officer rake (Ielioll to
ensure periodic reconciliations and testing are pet/ormed to verify completeness llnd
accuracy ofdata.

OCFO Response: With respect to Recommendation 2.1 regarding data quality. OCFO
would like to correct a statement in your audit citing a specific data problem. You state
that "89 awards included in the population did not identify an accounting classification
code structure (ACCs) ...". Research revealed that these awards were never obligated or
were awards against Basic Ordering Agreements (BOAs). In these cases, it is
appropriate for a CPSS record not to be obligated and, in tum, not associated with any
ACes. For BOAs, the record is required in CPSS for procurement purposes. These have
no financial transactions directly associated with them so they require no accounting
information. Accounting transactions occur when delivery orders are subsequently
placed against the BOAs and the ACCs are associated wi th the individual Delivery
Orders.

Tools are available to verify completeness and accuracy of data. CPSS records have a
"recstatus" associated with them to indicate whether they have been posted to the
Financial System. This must be considered when running reports against the data. If
there is no "recstatus" or a negative "recstalUs", there will be no corresponding
traJlsaction posted in FMSS. CPSS users can easily view the financial status of each
record by selecting the Financial/View Status menu option on the Award Summary
Screen. Reconciliation of the posted amounts can be performed using the Award
Financial History Report available in FMSSI Employee Inquiry.

Recommendation 2.2: We recommelld Ihat tile Chief Final/cial Officer take action 10
ensure system COl/trois are in place so that users cannot access and turn-off a defimlr
setting.

OCFO Response: As described below in the explanation for Recommendation 2.4. CPSS
has an automated calculation feature that nOJrnally would prevent negative amounts.
However, the business process can require the obligated amount of an award to differ
from the total award amoun t. As an example. the project may not have all of the funds
for the entire award available for obligation at one time. The total award amount field
renecls the entire dollar value of the award for the life of the contract, while the obligated
amount reflects the amount of funding that is available for obligation at that time.
Therefore, the user must be able to deactivate the automated calculation feature. OCFO
will investigate CPSS system defaults where they appear to contradict established
business processes to determine the best course of action.




                                                                                             3
Recommendatioll 2.3: We recommend tilat the ChiefFillancial Officer take actloll to
ensure jysrem cOlltrols are ill place to detect (lata tilm is 110/ valid, accurate, and
complete.

oeFO Response : This functionality is currently available. epss System edits are in
place to detect invalid ACC segments before transactions are posted to the Financial
Interface. System edits require that Delivery Orders as well as other financial
transactions contain complete and valid accounting data or they will be prevented from
posting. If there are errors in data entry, users receive error messages that help them to
understand why their transactions will not post.

The interface detemlines whether postings are being made to prior year funds and marks
the transaction in Oracle. Funds control is active in FMSS and prevents users from
encumbering funds in excess of available balances, Error messages are sent to the epss
user when attempting to post a transaction in excess of a fund balance. Three~way
matching is enforced within FMSS to ensure that posted erss order lines, epss
receipts, and FMSS invoiced amounts are consistent.

Recomme"dation 2.4: We recommend tilat ti,e ChiefFinancial Officer take action 10
determine why modijicmiolls entered by system users resu/f ill a Ilegafive balance.

OCFO Response: We would like to provide the explanation for the negative balances
you reference in Recommendation 2.4. CPSS has an automated calculation feature that
nonnally would prevent negative amounts. However, the business process can require
the obligated amount of an award to differ from the total award amount. As we
mentioned , it can be legitimate ror these values to difTer. To reiterate our example, the
project may not have all of tile runds available for obligation for the entire award
available at one time. The total award anlOun1 field reflects the entire dollar value of the
award for the life of the contract, while the obligated amount reflects the amount of
funding available for obligation at that time. Therefore, the user must be able to
deactivate the automated calculation feature.

CPSS users are trained in how to input the data, and user error can result in a negative
balance. In the event of an error in the manual calculation perfonned by the user, there is
no financial risk to the Department. This is an Administration screen confined to CPSS.
There is no mapping to the financial interface of data from these fields. Your comment
that the Department's ability to ensure proper fund control is diminished and can lead to
obligations and payment exceeding amounts available is not accurate as stated because
the negative amounts are solely reside in CPSS on tbe Administration of the contract
summary page with no interface to FMSS. The line item accounting detail is interfaced
and is the only amount against which payments may be made. With respect to your
statement that these issues could lead to "manipulation of the system by users causing
negative dollar amounts, accounting errors, and possibly lead to fraud~ waste and abuse",
as noted above, this will not lead to accounting errors, fraud, waste and abuse because the
line item accounting detail is interfaced and used to verify funds, obligate dollars and




                                                                                               4
paid against. However, where the user has altered data, the Administration amounts on
some contracts are not accurate, and need to be researched and corrected as appropriate.

Recommendation 2.5: We recommend that the ChiefFillancial O!ficertake actio" to
ensure thor file system COIl gellerate complete alld accurate reports ill a form tllld lVith
sufficiellt detail that call be used as a 1001 for users 10 enable them (0 carry Oll! their
imen/ttl comrol and operational responsibilities.

OCFO Response: While some limited capability is available, OCFO concurs with this
recommendation. For example, the Award Financial History report allows users to view
the entire history of an award, including award obligations, modification obligations,
receipts, and payments. It contains both CPSS and FMSS data for reconciliation. The
Status of Funds Report in FMSS allows offices to monitor charges made to ACCS for
which they are responsible. CPSS users are encouraged to send their reporting
requirements to the CPSS Functional Team for review. The Team gathers the output
requirements and works with the Reporting Team to ensure that the correct data fields are
selected. Selecting the correct data fields is critical, and these reports are tested
extensively prior to being released to users. Once released, users access the reports via
the CPSS Reports! Ad Hoes menu option or lhe FMSS Oracle! Employee Inquiry option.
Creating accurate standard reports precludes errors being made in selecting the
appropriate data fields for meeting reporting objectives. OCFO will take action to ensure
that CPSS reports are a tool for users enabling them to carry out their internal control and
operational responsibilities

Finding 3: Backdating a COR Aopointment Memorandum. The OIG noted in one
instance where the contracting officer did not issue an appoinunent memorandum to the
COR in a timely mamler. The COR functioned without official authority for
approximately one year. The contracting officer backdated the memorandum to get the
paperwork in order.

Based on the foregoing, the DIG issued the following recommendations:

Recommendation 3. 1: We recommend that the ChiefFinancial Officer take action to
revise Department Direclive OCFO:2-I08 to provide a specific NllIeframefrom when a
contract is awarded to when the CO is to send an appOintment memorandum 10 'he COR
reminding the COR ofhis or her responsibilities and limitalions in monitoring.

OCFO Response: CPO concurs with this recommendation. CPO will update
Departmental Directive OCFO 2-108, and the OCFO Procedure that Works addressing
COR appointments to include this policy.

RecolI/mel/daNon 3.2: We recommend that the ChiefFinancial Officer ensure
OCFO/CPO staffare aware ofalld adhere to Departmelllal standards alld guidelines
that apply to their responsibilities as cotllracNng officers, inc/uding issuing timely
tlppoilltmelll memorandums when appropriate.




                                                                                               5
OCFO Response: CPO believes that the staff is aware of these standards and guidelines,
and adheres to them to the best of their abi lities. CPO's OCFO Procedures thaI Work are
being reviewed to ensure that they are up to date and current wi th Departmental standards
and guidelines. CPO will send an email to all staff with a link to the OCFO Procedures
that Work website as a reminder that the procedures are available for their use.

Thank you for the opportunity to respond to this draft audit.




                                                                                         6
